Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




HYPERBARIC OXYGEN THERAPY
         Its Use and Appropriateness




                      JUNE GIBBS BROWN
                       Inspector General

                          OCTOBER 2000
                          OEI 06-99-00090
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                          HEADQUARTERS

Amy Beeson                                      Jennifer Antico
Kevin Golladay                                  Brian Ritchie
J’nette Oshitoye                                Barbara Tedesco




         To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                          EXECUTIVE SUMMARY

PURPOSE
          To describe the extent and appropriateness of hyperbaric oxygen treatment (HBO2)
          provided to Medicare beneficiaries.

BACKGROUND
          HBO2 involves giving a patient high concentrations of oxygen within a pressurized
          chamber. Originally developed for the treatment of decompression sickness, HBO2 is
          primarily an adjunctive treatment for the management of select non-healing wounds. To
          evaluate the extent and appropriateness of HBO2 we reviewed pertinent Health Care
          Financing Administration (HCFA) policies and published research, met with several
          interest groups representing hyperbaric physicians, analyzed Medicare claims data for
          HBO2 between 1995 and 1998, conducted medical review of HBO2 claims for a stratified
          sample of beneficiaries, surveyed a sample of facilities with HBO2 chambers, and surveyed
          contractor medical directors.

FINDINGS

$14.2 Million (of the $49.9 million allowed charges for outpatient hospitals and
physicians) Was Paid in Error for Hyperbaric Treatments

          Nearly 32 percent of beneficiaries received treatments for either non-covered conditions
          (22.4 percent, $10.5 million) or documentation did not adequately support HBO2
          treatments (9.2 percent, $3.7 million). While medical review would be necessary to
          identify most of these overpayments, some could have been detected had contractors
          utilized appropriate computer claims processing diagnoses edits.

An Additional $4.9 Million Was Paid for Treatments Deemed to Be Excessive

          Eleven percent of beneficiaries were treated for appropriate indications, but received more
          treatments than were considered medically necessary by our physician reviewers. The
          excessive treatments represent $4.9 million paid for potentially ineffective procedures.

Lack of Testing and Treatment Monitoring Raise Quality of Care Concerns

          Of the 68 percent of beneficiaries treated for covered conditions, 37 percent received
          questionable quality care with respect to either lack of appropriate testing prior to initiation
          of treatment or insufficient progress documented to justify continuation of therapy. The
          treatments with suspect quality account for as much as $11.1 million in payments.
          Additionally, our medical reviewers determined that more than 25 percent of beneficiaries
          had no documented physician oversight of their treatments; and almost twice

HBO2: Its Use and Appropriateness                    i                                      OEI 06-99-00090
          that many (44 percent) did not have a physician in attendance at their treatments. While
          attendance is not specifically required, our medical review showed a correlation between
          certain quality of care factors and physician attendance.

The Health Care Financing Administration’s Guidance Is Limited

          The guidance provided by the Health Care Financing Administration (HCFA) has been
          limited only to specifying covered disease conditions. As a result, carriers and
          intermediaries have varied payment guidelines (e.g., physician attendance, credentialing
          requirements), medical review procedures (i.e., use of diagnosis edits and post-payment
          review policies), and documentation requirements. While practice protocols and standards
          of care have been proposed by the HBO2 industry, HCFA has not incorporated either into
          its coverage policy.

Questions Over Appropriate Usage Along With a Potential for Expansion Increase
the Risks Related to the Vulnerabilities Found

          Although HBO2 has been a covered treatment option for many years, some questions still
          remain about its appropriate place in the context of wound-care. A recent assessment,
          performed in 1999 by the Blue Cross and Blue Shield Association, showed that some of the
          Medicare-covered indications do not have sufficient published evidence to determine that
          HBO2 is beneficial; however, this same study also documented evidence to support two
          conditions not specifically covered (chronic non-healing wounds and thermal burns).

          Questions of appropriate usage are magnified by the expense of the treatment. Total costs
          for outpatient HBO2 treatments and physician supervision average between $7,000 and
          $12,000 with extremes exceeding $100,000. Currently, the highest rates of use are in
          Colorado and the southern coastal states of Texas, Louisiana, and Mississippi. If other
          states had the same utilization as Texas, total reimbursement would increase five-fold.
          While this expansion is possible, recent and proposed changes or clarifications in Medicare
          coverage (e.g., non-coverage of preparation for a graft not previously compromised) and
          reimbursement (outpatient prospective payment and physician fee schedule reductions) may
          curtail expansion.

RECOMMENDATIONS
          To address concerns raised in this report, we recommend that the Health Care Financing
          Administration:

                     !         Initiate its national coverage decision process for HBO2.

                     !	        Improve policy guidance ( e.g., practice guidelines and physician attendance
                               policy).

                     !	        Improve oversight by requiring contractors to initiate edits and consistent
                               medical review procedures, and by exploring the establishment of a registry
                               of facilities and/or physicians providing HBO2.

HBO2: Its Use and Appropriateness                       ii                                    OEI 06-99-00090
AGENCY COMMENTS
          The HCFA generally concurs with our recommendations, and reports several on-going
          efforts to address concerns raised in this report (e.g., reviewing coverage policy and
          alerting carriers to vulnerabilities associated with this procedure).




HBO2: Its Use and Appropriateness                 iii                                   OEI 06-99-00090
                     TABLE                         OF             CONTENTS

                                                                                                                       PAGE


EXECUTIVE SUMMARY                                                                                                               i


INTRODUCTION                                                                                                                   1


FINDINGS                                                                                                                       6


        Questions persist concerning the appropriate usage of HBO2 . . . . . . . . . . . . . . . . . . . . . 6


        Potential for expansion exists within the hyperbaric industry . . . . . . . . . . . . . . . . . . . . . . 8


        $14.2 million was paid in error for hyperbaric treatments . . . . . . . . . . . . . . . . . . . . . . . . 9


        An additional $4.9 million was paid for excessive treatments . . . . . . . . . . . . . . . . . . . . 11


        Our review of HBO2 raised several quality of care concerns . . . . . . . . . . . . . . . . . . . . . 11


        Some carriers and intermediaries do not apply edits and appropriate 

        medical review standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


        HCFA’s guidance for this procedure is limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


        Recent and impending regulatory changes may affect growth . . . . . . . . . . . . . . . . . . . . 19


RECOMMENDATIONS                                                                                                              20


ENDNOTES                                                                                                                     22


APPENDICES
    A: Cellular and biochemical benefits of hyperbaric oxygen . . . . . . . . . . . . . . . . . . . . . A-1


        B: Section 35-10 of the Coverage Instruction Manual . . . . . . . . . . . . . . . . . . . . . . . . B-1


        C: Discussion of covered indications by Florida BC/BS . . . . . . . . . . . . . . . . . . . . . . . C-1


        D: Appropriateness of Treatment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1


        E: Accepted usage of HBO2 by HCFA and Interest groups . . . . . . . . . . . . . . . . . . . . E-1


        F: Comparison of ICD-9 Interpretations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . F-1


        G: Key Questions from the Medical Review Protocol . . . . . . . . . . . . . . . . . . . . . . . . . G-1


        H: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . H-1

                                     INTRODUCTION

PURPOSE
          To describe the extent and appropriateness of hyperbaric oxygen treatment (HBO2)
          provided to Medicare beneficiaries.

BACKGROUND

Hyperbaric Oxygen Therapy

          Hyperbaric oxygen therapy (HBO2) provides a therapeutic dose of oxygen by creating a
          pressurized environment in which patients intermittently breathe 100 percent oxygen.1
          This procedure was originally developed for the treatment of decompression sickness; but
          the primary usage in the United States currently is for wound care. Although the
          mechanisms are not firmly established in scientific literature, most agree that hyperbaric
          oxygen therapy serves four primary functions. First, it increases the concentration of
          dissolved oxygen in the blood, which enhances perfusion. Second, it stimulates the
          formation of a collagen matrix so that new blood vessels may develop. Third, it replaces
          inert gas in the bloodstream with oxygen, which is then metabolized by the body; and
          finally, it works as a bactericide. The proposed biological and chemical benefits of HBO2
          are further described in Appendix A.

          The HCFA has established fourteen conditions in its Coverage Instruction Manual (CIM)
          section 35-10 for which hyperbaric therapy is reimbursable. For additional information on
          the fourteen conditions, see Appendices B and C. The indications include:

                               (1) Acute carbon monoxide intoxication

                               (2) Decompression illness

                               (3) Gas embolism

                               (4) Gas gangrene

                               (5) Acute traumatic peripheral ischemia 

                               (6) Crush injuries

                               (7) Progressive necrotizing infections

                               (8) Acute peripheral arterial insufficiency

                               (9) Preparation and preservation of compromised skin grafts

                               (10) Chronic refractory osteomyelitis

                               (11) Osteoradionecrosis (ORN)

                               (12) Soft tissue radionecrosis (STRN)

                               (13) Cyanide poisoning

                               (14) Actinomycosis


          The standard definition of hyperbaric oxygen therapy is intermittent 100% oxygen
          breathing at greater than one absolute atmospheric pressure (1 ATA); however, the




HBO2: Its Use and Appropriateness                       1                                     OEI-06-99-00090
           Undersea and Hyperbaric Medical Society (UHMS) reports that the pressurization should
          be 1.4 ATA or higher.2 Each treatment (or “dive”, an analogy relating to the
          pressurization) is generally between 60 and 120 minutes in length3 ; and each patient will
          generally receive between 10 and 60 total sessions throughout the course of therapy.

          The delivery system for this therapy may be in the form of a monoplace or a multiplace
          chamber. A monoplace chamber is designed for a single patient to lie in the supine
          position. The entire chamber is filled with oxygen for the duration of the treatment. The
          larger multiplace system (See Figure 1) is designed to accommodate between two and
          twelve patients comfortably and in a variety of positions. It often has an additional
          compartment for attendants to go in and out of the chamber without interrupting
          treatments; however, in some cases the attendant may spend the duration of the treatment
          with a patient. In this type of chamber, oxygen is administered through a mask or head tent
          during the procedure. Topical and extremity hyperbaric units describe a third class of
          chamber, but this class is not considered an acceptable substitute for the full body chamber
          and is not covered by Medicare.

                                                Figure 1




          The literature states that the most common side effects are middle ear barotrauma and
          claustrophobia, which occur in 2 percent of treatments. Other mild side effects include
          sinus squeeze, serous otitis, reversible progressive myopia, and in about 1 per 10,000
          treatments, pulmonary and neurologic manifestations of oxygen poisoning.4 Additional
          concerns have to do with safety related to the risk of fire created by the use of compressed
          oxygen.

Medicare Payments

          Medicare allowed charges of approximately $76 million dollars ($47 million paid) for
          HBO2 in 1998 for 15,687 beneficiaries. Outpatient reimbursement was $35 million for
          6,734 beneficiaries, physicians received $18 million for 7,282 beneficiaries, approximately




HBO2: Its Use and Appropriateness                   2                                      OEI-06-99-00090
          $19 million was associated with a hospital stay for 8,916 beneficiaries, and nearly $5

          million was allowed as part of a skilled nursing facility stay for 1,408 beneficiaries.5


          HBO2 treatments generally involve a facility charge and often a charge by a physician for

          supervision. Procedure code 99183 is billed for physician supervision and revenue center

          413 includes facility charges for HBO2. Facility reimbursement is typically included as part

          of the prospective payment’s diagnosis related group (DRG) payment if provided during an

          inpatient 

          hospital stay or cost-based if provided by an outpatient department. Physician

          reimbursement is based on a fee schedule and was approximately $140 in 1998. In

          contrast, cost-based outpatient reimbursement varies considerably from hospital to hospital. 

          Cost-based reimbursement is currently being replaced with a prospective payment system

          for these services.


METHODOLOGY

          To evaluate the extent and appropriateness of HBO2 we reviewed pertinent HCFA
          policies, met with several interest groups representing hyperbaric physicians, analyzed four
          years of Medicare payments, conducted medical review on a stratified sample of
          beneficiaries, surveyed a sample of facilities with HBO2 chambers, and surveyed contractor
          medical directors.

Medicare Payment Data

          We identified all Medicare beneficiaries with hyperbaric treatments paid by Medicare
          between 1995 and 1998. Identification of a hyperbaric procedure was based on the
          American Medical Association’s (AMA) CPT code 99183 (hyperbaric oxygen treatment)
          or facility revenue center code 413 (hyperbaric). We then extracted all payments
          maintained in HCFA’s National Claims History (NCH), whether paid by a carrier
          (physician claims) or an intermediary (hospital inpatient, hospital outpatient, or skilled
          nursing facility claims). This data was then utilized in sample selection, provider profiling,
          and trending (among states and over years).

Sample Selection

          Sampling was done by beneficiary with stratification based on overall payments for the
          entire duration of HBO2 treatment. Any beneficiary having HBO2 payments during a one
          year period (July 1, 1997 through July 1, 1998) represented the universe. Stratification
          was as follows:




HBO2: Its Use and Appropriateness                    3                                       OEI-06-99-00090
                                                    Sample Stratification

                                                                     Population    Sample
                              Strata (Allowed Charges for HBO2                      Size
                              over entire course of treatment)

                              $100 to $5,000                        4962          95

                              $5,001 to $10,000                     2165          95

                              $10,001 to $20,000                    1661          95

                              $20,001 to $100,000                   622           95

                              Over $100,000                         15            15

                              Beneficiaries with Physician or       9,425         395*
                              Outpatient HBO2 Payments
                                *Sample reduced to 378 because of facility non-response.

          We limited strata payment calculations to outpatient facility payments and physician
          payments. Hospital inpatient services were excluded because reimbursement is based on a
          prospective payment system. Since the receipt of HBO2 while in the hospital was unlikely
          to affect the diagnosis related group (DRG) or admission, no overpayments to the facility
          would result from unnecessary treatment.

Medical Record Request

          For each beneficiary sampled, the complete patient’s medical history was requested from
          the point HBO2 treatments began to the point they stopped. In most cases, records were
          provided by the hospital where services were provided; however, in some cases, the
          physician provided additional information. We requested:

                     1.        History and physical,
                     2. 	      Substantiation of diagnosis for hyperbarics (e.g. lab work; photographs;
                               operative notes; initial consult for hyperbarics; and, physician’s evaluations),
                     3.	       Substantiation of hyperbaric treatment (e.g. treatment logs; physician
                               progress notes; and, technician progress notes),
                     4.	       Substantiation of medical necessity for hyperbarics (e.g. progress notes and
                               evaluations), and
                     5.        Discharge summary.

Medical Record Review Process

          Because of the specialized nature of hyperbarics and the need for reviewers with
          knowledge and expertise in hyperbarics, we contracted with four physicians who currently
          practice in the field and are experienced in wound management. These physicians are
          involved in a variety of relevant activities such as the following:




HBO2: Its Use and Appropriateness                               4                                 OEI-06-99-00090
                     - Used as a medical reviewer for the local Medicare contractor,
                     - Contribute to the medical literature through journal articles,
                     -	 Actively involved in HBO2 associations (e.g., Undersea Hyperbaric Oxygen
                        Society (UHMS)).

          We developed a detailed medical review protocol which we refined with the assistance of
          the physician reviewers. The review protocol assessed (1) medical necessity and
          appropriateness, (2) adherence to Medicare coverage policy, (3) utilization patterns, (4)
          documentation, and (5) outcome. All reviews and medical appropriateness decisions were
          made by the medical reviewers.

Contractor Medical Director Survey

          A brief survey was sent to each carrier and intermediary medical director asking questions
          about local HBO2 payment experience and policy (68 of the 74 medical directors
          responded). Individual perceptions of the efficacy of HBO2 were also obtained.

Facility Survey

          Each facility treating beneficiaries in our sample was identified and sent a survey along with
          the request for medical records (211 of the 217 facilities responded). Facilities were asked
          to provide information about the type of chamber used and the qualifications of the staff.

Statistical Analysis

          Chi-square and Cochran Mantel-Haenszel statistics, percentage estimates and
          corresponding 95 percent confidence intervals for key medical review data were computed
          using the computer program Sudaan. Sudaan is a statistical analysis program with
          appropriate standard statistical formulas for calculating correct standard errors for complex
          sampling using stratification.

          Non-Response Analysis. A non-response analysis was conducted for the seventeen
          facilities that failed to provide records for the medical review. Thirteen of the facilities
          (76%) did complete the facility survey describing practices and characteristics of the
          hyperbaric department. No significant differences were found between the responding and
          non-responding facilities with the exception that non-responding facilities were more likely
          to use a multiplace chamber (p=.04) and employ at least one full-time physician (p=.06).


This inspection was conducted in accordance with the Quality Standards for Inspections Issued by
the President’s Council on Integrity and Efficiency.




HBO2: Its Use and Appropriateness                    5                                     OEI-06-99-00090
                                        FINDINGS

Questions persist concerning the appropriate usage of
hyperbaric oxygen therapy
          For years, hyperbaric oxygen therapy has been considered a controversial procedure
          because of a lack of rigorous scientific evidence demonstrating the efficacy of its use for
          many of the conditions Medicare covers. This was the conclusion, in 1995, by the
          Department of Health and Human Services’ Agency for Healthcare Research and Quality
          (AHRQ).6 Their review criticized available research studies for having poor study
          design(s), non-standardized protocols and poor patient selection” which caused “equivocal
          and conflicting conclusions concerning [HBO2's] efficacy.” In response to these criticisms,
          HBO2 interest groups countered that small sample size and lack of control groups were
          research problems inherent to the conditions being treated. Consequently, AHRQ’s review
          discounted much of the most compelling evidence as a result of methodological issues.

          Since AHRQ’s review, the body of research supporting HBO2 has continued to grow, with
          some studies achieving adequate research standards (i.e., appropriate control groups,
          adequate sample size, an appropriately defined and homogeneous patient population, a well
          described treatment regimen, valid health outcome measures, and publication of results in a
          full length, peer-reviewed journal article). While the research has yet to fully prove the
          efficacy of all the currently approved conditions, a recent (1999) review by the Blue Cross
          and Blue Shield Association’s Technology Evaluation Center for a select number of
          medical conditions found adequate scientific evidence to support acute traumatic peripheral
          ischemias, clostridial myonecrosis, and a few conditions not specifically covered by
          Medicare, such as chronic non-healing wounds7 and burns.8 Although this review found
          evidence of efficacy for these conditions, adequate evidence was not found to validate the
          efficacy of several conditions Medicare currently covers: compromised skin grafts, chronic
          refractory osteomyelitis, and necrotizing soft-tissue infections. The results support the
          claim that hyperbarics is a beneficial treatment; however, Medicare may not cover the
          appropriate conditions. Furthermore, hyperbarics may not be the most cost-effective
          treatment option for some patients and conditions.

          Carrier and intermediary medical directors support the use of HBO2, but vary in opinion on
          the extent of covered indications. While over half of all carrier and intermediary medical
          directors responding to our survey said hyperbaric therapy is beneficial for all of the
          currently covered conditions, one third still believe that hyperbaric coverage is too broad.

          Outside the United States, HBO2 is viewed with less conservatism. International medical
          communities cite as many as 20 classes of indications, relating to 66 specific conditions, for
          HBO2 (See Appendix E). This is considerably more than the 14 indications approved by
          the HCFA.




HBO2: Its Use and Appropriateness                   6                                       OEI-06-99-00090
Hyperbarics is most commonly used to treat wound related problems

          The most commonly treated indications for Medicare beneficiaries are arterial insufficiency,
          effects of radiation and compromised skin grafts. The following figure (Figure 2) indicates
          the breakdown of primary treatment indications found in the medical review sample.9

                                                    Figure 2

                                       CIM 35-10 Indications for Treatment

                                                       (% of beneficiaries)

                               Acute Peripheral Arterial Insufficiency        20.9%

                               Effects of Radiation (ORN and STRN)            15.1%

                               Preparation & Preservation of Skin Grafts      15.0%

                               Chronic Refractory Osteomyelitis               8.6%

                               Progressive Necrotizing Infections             4.0%

                               Gas Gangrene                                   1.3%

                               Decompression Sickness                         0.8%

                               Carbon Monoxide Poisoning                      0.6%

                               Acute Traumatic Peripheral Ischemia            0.2%

                               Non-covered primary indications10              33.5%



Costs per individual are very high

          The number of beneficiaries actually receiving hyperbarics remains relatively small, but the
          costs per beneficiary can be very high. The average total allowed charge per treatment in
          1998 was approximately $405 ($140 for physician supervision and $265 for outpatient
          services). Coupled with the relatively high average number of treatments per individual
          (29), this results in an average allowed therapy cost of over $12,000 for a single patient.
          The top five percent of beneficiaries have considerably higher costs, ranging from $50,000
          to $325,000 per individual. The hyperbaric societies contend that although the procedure is
          relatively expensive and benefits a very small group of individuals, hyperbaric oxygen
          therapy is a cost-effective means to treat candidates with select wounds and a few life-
          threatening medical conditions. The UHMS Committee Report (1996) states that "aside
          from clinical efficacy, HBO2 yields direct cost savings by successfully resolving a high
          percentage of difficult and expensive disorders, thereby minimizing prolonged
          hospitalization."

Individual outcomes vary greatly

          Although our medical review did not attempt to independently evaluate the overall efficacy
          of HBO2, the benefits of hyperbarics, as evaluated by our medical review team, ranged
          from saving lives to no benefit at all. While a few are believed to have benefitted




HBO2: Its Use and Appropriateness                               7                         OEI-06-99-00090
          to the extent that either life or limb was saved (0.7 percent), thirteen percent of
          beneficiaries showed no improvement of their medical condition after treatment with
          HBO2. The treatment may also be considered burdensome to the beneficiary, for they are
          financially responsible for at least 20 percent of the cost of therapy; and according to our
          review, 18 percent demonstrated side effects as a result of the HBO2.4 Furthermore, there
          is no way to determine if those who do benefit would have seen improvement without the
          treatment or with other aggressive wound care. However, to acknowledge the risks, costs
          and variable outcomes does not necessarily disparage this procedure. Hyperbaric therapy is
          generally reserved as a last resort, when other treatment options are exhausted. The
          population targeted is generally elderly and very ill. The average age of a hyperbaric
          Medicare patient is 70. At least 45 percent are diabetic; and almost 40 percent have some
          form of heart disease. It also appears that about 18 percent are deceased within two years
          after treatment. Hyperbarics is often an end of life procedure and may provide a reprieve
          from painful non-healing wounds; and in some cases, it is credited with saving lives.


Potential for expansion exists within the hyperbaric industry
Medicare Payments and Providers Steadily Increased From 1995 to 1998

          In 1998, allowed charges were approximately $76 million for 15,687 beneficiaries. 

          Charges were distributed between physicians (24 percent), hospitals (70 percent), and

          skilled nursing facilities (6 percent). Between 1995 and 1998, charges increased by 52

          percent (not adjusting for inflation) while the total number of Medicare beneficiaries

          treated increased by only 27 percent. (See 

          Figure 3.) 


          The increases in payments and
                                Figure 3

          beneficiaries were outpaced by even
          larger increases in the number of

          providers of HBO2 during this same

          period. For example, the number of

          hospitals billing outpatient HBO2

          increased by 122 percent (from 232

          facilities to 514), while the number of

          physicians billing HBO2 procedures

          increased 64 percent (from 642 to

          1053). 


          The increases in billing and providers of

          HBO2 parallel overall growth in the

          wound care market and reflect increased

          access to affordable chambers. The

          Florida-based American Academy

          estimated that in 1998 the market for

          hyperbaric chambers was $1.74 billion

          and is expected to grow to 



HBO2: Its Use and Appropriateness                      8                                  OEI-06-99-00090
          $2.57 billion by 2002.11 The dramatic rise in the wound care market has created an
          attractive opportunity for medical equipment suppliers who are making chambers available
          at costs of less than $100,000 or through lease arrangements.

Utilization Varies Between Geographic Regions

          The highest rates of per capita use of HBO2 are in Colorado and the gulf states of Texas,
          Louisiana, and Mississippi. By far, Texas is the state with the highest number of treatments
          and total billing; total allowed charges were over $21 million in 1998, nearly three times the
          charges of any other state. The disproportionate use of HBO2 is most likely a result of
          geographic differences in exposure to hyperbarics in medical schools, professional
          environments, incidence of diabetes, and access to chambers. Since chambers were
          originally developed to treat decompression illness, it is not surprising that chambers would
          be located in coastal areas, particularly areas proximate to deep sea oil wells. As
          researchers discovered other uses for HBO2 (i.e., wound care), additional chambers were
          installed in those areas. While chambers can be found in most states, variation in billing for
          HBO2 between states and the limited numbers of chambers in many states suggests an
          opportunity for expansion. Whether hyperbaric therapy is under-utilized in most states or
          over-utilized in a few is not certain; however, if utilization were to expand across the
          country to levels similar to Texas, HBO2 reimbursements would increase nearly five-fold.
          Additionally, if HBO2 were found to be beneficial for other disease conditions (e.g.,
          diabetic foot or non-healing wounds) and consequently added to Medicare’s coverage
          policy, use of HBO2 could substantially increase in every state.


$14.2 Million was paid in error for hyperbaric treatments (of the
$49.9 million allowed charges for outpatient hospitals and physicians)

          HBO2 treatments for 32 percent of beneficiaries were identified by our medical review
          team as inappropriate. Either beneficiaries received treatments for non-covered conditions
          (22.4 percent of beneficiaries, $10.5 million) or documentation was not sufficient to
          support HBO2 treatments (9.2 percent, $3.7 million). This projects to total allowed
          charges for HBO2 billed in error by physicians and outpatient hospitals of $14.2 million in
          the sample year (July 1, 1997 to July 1, 1998). (See Appendix D.) This represents
          approximately 28 percent of total payments paid to outpatient facilities and physicians
          during the sample year. While medical review would be necessary to identify most of these
          overpayments, some could have been detected had contractors utilized appropriate
          computer claims processing diagnosis edits.

The discrepancy between indications recommended by the hyperbaric community
and those acceptable for Medicare reimbursement contribute to inappropriate
billing

          Discrepancy exists between the treatment indications approved for Medicare
          reimbursement and indications considered appropriate by the hyperbaric medical societies
          (UHMS and ACHM). The most prominent examples are the extension of treatment to the



HBO2: Its Use and Appropriateness                   9                                      OEI-06-99-00090
           diabetic foot and to thermal burns. Appendix E - “Recommended Usage of HBO2 by
          HCFA and Interest Groups”, lists potential indications for HBO2 including HCFA
          coverage, as well as the recommendations of the two medical societies, plus one set of
          international guidelines. The treatment indications for which there are discrepancies
          between HCFA coverage and the domestic interest group guidance are bolded.

          Many facilities rely on information provided by these groups to develop practice standards.
          The differing recommendations of these authorities can create confusion. The failure of
          some providers to recognize the difference between interest group suggestions and
          HCFA’s formal payment policies may lead to inappropriate billing. One example described
          by a representative of UHMS regards the controversy surrounding non-healing wounds.12
          “Reputable hyperbaric physicians around the country have tried to treat [patients with non-
          covered hypoxic wounds] on the basis of good experimental and clinical evidence justifying
          their treatment plan in terms of arterial insufficiency and acute ischemia as the only
          available means to describe the aforementioned hypoxic wound.” This comment alludes to
          the parallel between covered and un-covered conditions13; and the fact that physicians will
          sway their interpretation of diagnosis codes to align treatment practices with their own
          medical judgements. Difficulty discerning covered from uncovered conditions combined
          with the inclination of many physicians to follow their own medical judgement (as
          influenced by the medical societies) rather than payment guidelines sometimes result in
          inappropriate Medicare claims.

Diagnosis codes are sometimes used inappropriately to obtain reimbursement for
uncovered indications

          Although the guidelines specifically describe fourteen indications for which hyperbaric
          treatment is reimbursable by Medicare, some providers have taken great latitude in how
          they interpret those conditions, while others appear to deliberately use inaccurate ICD-9
          codes to bypass carrier and intermediary edits. Our reviewers found 13 percent of
          beneficiaries had diagnoses listed on their claims that misrepresented their true medical
          condition. For example, of the hyperbaric charts reviewed using the diagnosis code gas
          gangrene (n=24), only three were found to have “wet” (a.k.a. gas) gangrene (the only type
          of gangrene covered). Ten of the remaining 21 charts showed a primary indication of “dry”
          gangrene, an indication not covered by CIM 35-10 in and of itself. The reviewers also
          determined that treatment courses in accordance with the CIM 35-10 guidelines tended to
          have billing diagnoses that accurately described the beneficiary’s condition; but, of
          treatment courses that did not comply with the CIM 35-10 guidelines, over half had a billed
          diagnosis that described a secondary or tertiary indication or was deemed to be
          erroneous.14 This relationship (p<.001) suggests that diagnosis codes are, at times,
          selected for the purpose of bypassing the carrier and intermediary edits used to flag
          potentially inappropriate treatments.

          The problems related to diagnosis codes are exacerbated by the absence of ICD-9 codes
          specific to some of the covered conditions (e.g., Meleney’s ulcer and Arterial
          Insufficiency). Contractors, in their interpretation of the 35-10 guidelines to system edits,
          are forced to accept loosely related diagnoses on claims to justify medical necessity. The
          slack created by the interpretation allows physicians to treat non-covered indications


HBO2: Its Use and Appropriateness                   10                                      OEI-06-99-00090
          without falsifying the diagnosis. A few billing diagnoses, identified by the medical review,
          are frequently associated with non-compliance of the 35-10 guidelines. Claims with a
          billing diagnosis of “chronic ulcer” were found to be out of compliance almost two-thirds
          of the time (p<.001); and, those with a billing diagnosis of “pyoderma” were out of
          compliance in almost half of the cases (p<.01).15

Some Providers did not provide sufficient documentation to justify Medicare
reimbursement

          Billing errors and inadequate documentation account for 9 percent of beneficiaries treated
          with HBO2. In most cases, sufficient documentation was simply not provided. An on-site
          review at one of the hospitals failing to provide records resulted in recoupment action and a
          referral for a fraud investigation. While treatments may have been provided, the facility
          was unable to provide the intermediary with adequate documentation (e.g., treatment logs)
          in nearly all of the cases requested. In addition to documentation problems, three charts in
          the sample were counted as inappropriate because they billed Medicare for topical
          hyperbaric oxygen therapy - a procedure explicitly excluded in the reimbursement
          guidelines. Five charts used the 99183 code or the revenue center 413 for related
          procedures other than HBO2 (e.g., basic wound care). Medical records for three charts
          showed that the beneficiary for whom claims were received was never treated with
          hyperbarics. The remainder of this group (12 charts) provided documentation, but it was
          not sufficient to complete the reviews.

An additional $4.9 million was paid for treatments deemed to
be excessive
          Eleven percent of beneficiaries were treated for appropriate indications, but received a
          greater number of treatments than were considered medically necessary by our physician
          reviewers. The excessive treatments represent $4.9 million paid for potentially ineffective
          procedures. (See Appendix D.) The only controls concerning the length of therapy are a
          requirement that courses of therapy extending beyond two months be reviewed and that
          treatments should be medically necessary.

Our review raised several quality of care concerns
Another $11.1 million was spent on treatments of questionable quality

          Of the beneficiaries appropriately treated with hyperbarics, 37 percent16 received treatments
          that likely did not yield the maximum benefit possible. This projects to $11.1 million spent
          on such treatments. We examined two proxy variables for quality of care: (1) insufficient
          progress to justify continuation of therapy, and (2) inappropriate or inadequate testing. Of
          beneficiaries treated for appropriate indications, 35 percent did not show sufficient
          documented progress to justify continuation of the therapy; and 15 percent did not have
          appropriate testing to confirm a diagnosis supporting the use of hyperbarics. (See
          Appendix D.) Existing Medicare guidelines do not set testing or monitoring standards;
          however, some of these services might be deemed medically unnecessary.


HBO2: Its Use and Appropriateness                  11                                      OEI-06-99-00090
Physician attendance remains a point of contention

          Two perspectives on the meaning of ‘attendance’ are prominent in the hyperbaric
          community: (1) the physician is physically present during the entirety of the treatment and
          uses that time to manage the patient’s overall care; and (2) physicians remain available to
          manage rare emergency situations. Over 75 percent of medical directors agree that
          physician attendance is necessary to promote either safety or quality of care or both. Fifty-
          six percent of facilities claim to have a physician in the same or adjacent room 100 percent
          of the time. In contrast, part-time physicians and those that supervise, but do not
          physically attend treatments, tend to be of the opinion that their purpose in attendance is
          not to manage the patient, but to manage emergencies.

          Our review indicates physician attendance is strongly correlated with quality of care
          and the reduction of inappropriate billing. Almost two-thirds of medical directors do
          support the notion that physician attendance is necessary to achieve quality. Similarly, our
          medical review results supported this concept, showing a significant relationship (p<.001)
          between quality of care variables and physician attendance and between compliance with
          HCFA guidelines and physician attendance (p<.001). These relationships provide support
          for requiring physician attendance during all treatments. For example, 74 percent of the
          payments termed “inappropriate” by our reviewers did not appear to have a physician in
          attendance. We cannot be certain that physician attendance would have corrected all of
          these payments, but the strong relationship between quality and attendance suggests a
          potential for reducing inappropriate payments.17

          Many facilities do not require physical physician attendance. The reviewers
          determined that more than 25 percent of beneficiaries had no physician oversight of their
          treatments; and twice that many (44 percent) did not have a physician in attendance at their
          treatments.18 Self-reported data from facilities confirms that some facilities (at least 10%)
          never have a physician in attendance and approximately one quarter have physicians in
          attendance less than half of the time. Over half of the facilities surveyed stated that
          supervising physicians were employed part-time, if at all.

Training requirements may provide a means of promoting quality care

          Some local medical review policies (LMRPs) aim at improving the quality of care by
          requiring physician attendance and setting qualifications or credentialling requirements for
          the supervising physicians. One policy implemented by Blue Cross and Blue Shield of
          Texas (now Trailblazers) sets such requirements. Under this policy, the supervising
          physician must meet the following criteria:

                     (1) Training, experience and privileges to manage cardiopulmonary
                             emergencies;
                     (2) Training, experience and privileges to manage emergency myringotomies;
                     (3) Completion of a 60 hour course in hyperbaric medicine recognized by
                            UHMS or ACHM 19; and,
                     (4) Completion of 16 CME credits every two years after credentialling.



HBO2: Its Use and Appropriateness                   12                                     OEI-06-99-00090
          Only 41 percent of the facilities we surveyed have even one physician who meets these
          requirements. Facilities employing at least one full-time doctor meet the requirements
          more often than those that do not.20 A recent proposal by HCFA to modify the CIM 35-10
          guidelines suggested adopting requirements such as these. Although the hyperbaric
          societies do support training requirements, they and the American Medical Association
          (AMA) object to the imposition of such requirements by HCFA on the grounds that
          credentialling is the responsibility of hospitals or licencing boards and does not
          meaningfully fall under the jurisdiction of the government. However, we believe HBO2 is a
          service highly vulnerable to misuse (as seen by our medical review). It is also a procedure
          that generates little attention because a low number of patients are affected and because the
          total dollar amount in jeopardy is relatively small. In such a case, a national credentialing
          or training policy would ensure all contractors institute such requirements.

Many carriers and intermediaries play only a limited role in assuring the quality of
hyperbaric care

          Although the peer review organizations (PROs) may be primarily responsible for ensuring
          the quality of care provided in facilities, there are several ways that carriers and
          intermediaries could promote a higher quality of care, such as communicating new
          developments in medical standards highlighting differences between medical opinions and
          payment guidelines, and performing periodic post-pay edits to confirm that diagnostic and
          ancillary services are provided appropriately. From surveying the Medicare medical
          directors about their organization’s activities promoting quality care, we found a mixed bag
          of approaches to quality issues. Over half report that they provide voluntary guidance
          upon request and use edits to confirm that diagnostic and ancillary services are provided
          appropriately. However, only 34 percent and 41 percent, respectively, publish standards of
          HBO2 care in a regular newsletter or deny claims when sub-standard care is found.
          Although prescriptive policies are somewhat controversial, 13 percent did report providing
          suggested protocols to hyperbaric facilities. Several other medical directors mentioned
          referring cases to the PRO, creating additional requirements (such as attendance,
          credentialling, or specifying appropriate settings) in their LMRPs, and one medical director
          stated that his carrier/intermediary performs pre-pay reviews for hyperbaric treatments.

Some carriers and intermediaries do not apply edits and
appropriate medical review standards to ensure compliance
with the CIM 35-10
          Billing data from our sample showed evidence that carriers and intermediaries do not
          uniformly use edits to detect procedures billed with inappropriate diagnoses; nor is there a
          uniform protocol for reviewing medical records for appropriateness of indication and
          medical necessity after two months of treatment.21 It appears that 23 percent of bills are
          paid with an inappropriate billing diagnosis (which could have been identified by a pre-
          payment edit). Of these, 53 percent are not in accordance with CIM 35-10 and should not
          have been paid. (This relationship is significant at p=.001.)22




HBO2: Its Use and Appropriateness                  13                                      OEI-06-99-00090
          Local medical review policies and implementation of system edits vary by contractor. The
          implications of such variation include likely differences in coding patterns and rates of
          inappropriate reimbursements. Further differences exist in the level of medical review
          employed. As an example, one intermediary only verifies that the billing diagnosis is
          covered (ICD-9 code is valid) and does not routinely review medical records to
          substantiate the authenticity of the patient’s condition or question the amount charged. This
          limited medical review process leaves the contractor vulnerable to fraud, inappropriate
          utilization, and inflated charges. Our review found one hospital taking extreme advantage
          of these vulnerabilities. The facility routinely charged $5,500 and the contractor allowed
          $4,400 for each individual treatment. In contrast, most facilities average allowed charges
          between $250 and $300. Upon our request for the hyperbaric facility’s records, they sent
          virtually no documentation that the treatments were even performed. At our request, post-
          payment review at the facility was performed by the intermediary; and consequently, $1.3
          million in erroneous payments were identified and recoupment initiated. Although these
          problems are extreme, the lack of oversight described is not unique. For example, another
          intermediary reported that facilities were on the “honor system.” As a result, claims were
          being paid for non-covered conditions such as multiple sclerosis, heart attacks, cancer, and
          pneumonia. (Since being contacted by the Office of Inspector General (OIG), this
          contractor reported it has begun using a front-end editing tool called Super Op to detect
          these situations.)

          According to self-reported data, 42% (29/68) of medical directors confirm their institutions
          have no edits in place for hyperbarics. The CIM 35-10 guidelines describe at least two
          conditions for which edits are a feasible method of screening: (1) limiting coverage to
          fourteen diagnosable conditions; and, (2) requiring a review for any course of treatments
          extending beyond two months. Almost 60 percent of carriers and intermediaries do not
          have system edits for both of these conditions.23

          Once a bill is identified as requiring a pre- or post-payment review, the mechanism can
          differ by carrier or intermediary. Fifteen percent of contractors self report that the process
          is comprised merely of reviewing diagnosis codes and nothing else. In general,
          approximately 60 percent of medical directors reported that they do confirm that
          treatments are actually provided and that those treatments are medically necessary and
          within HCFA's diagnosis parameters. However, the majority (72 percent) do not have
          medical review procedures to routinely detect over-utilization of treatments, whether
          hyperbaric therapy is used adjunctively (not as a primary therapy), and whether progress is
          monitored appropriately by a physician throughout the treatment.24




HBO2: Its Use and Appropriateness                   14                                      OEI-06-99-00090
HCFA’s guidance for this procedure is limited
          The guidance provided by HCFA controls usage only by (1) limiting indications for
          treatment, (2) creating a provision that HBO2 must be adjunctive to primary therapy, and
          (3) denying coverage for topical hyperbaric oxygen therapy. The guidance may be found in
          Appendix B. Although these restrictions appear quite clear, in application they often
          become vague, and in some areas, inconsistent.25

Many carriers (68%) and intermediaries (54%) have no local medical review policy
or payment guidelines independent of the CIM 35-10

          When asked about efforts to convey the intent of CIM 35-10 to physicians providing
          services, over one quarter (12/44) of carrier medical directors stated they do nothing
          beyond relying on information within the CIM 35-10 guidelines. As one medical director
          expressed, “CIM 35-10 is a national coverage policy. In these cases [referencing potential
          misinterpretations], we feel it should be HCFA and not local contractors that clarify
          intent.” This stand may not be the position of all contractors; but in light of the wide-
          spread misuse identified by the medical review analysis, one could conclude that the
          existing guidelines are not sufficient.

Carriers and Intermediaries vary in how they interpret and implement CIM 35-10

          A comparative analysis of acceptable ICD-9 codes for four local medical review policies
          and HCFA's 1999 proposed revision to CIM 35-10 may be viewed in Appendix F. The
          table clearly shows significant variation in interpretations of the CIM 35-10 guidelines. For
          example, a LMRP from Transamerica of Southern California accepts only one code for
          arterial insufficiency (443.9 peripheral vascular disease), while HCFA’s proposed
          interpretation of the indication arterial insufficiency included three codes very different
          from Southern California (444.21, 444.22, and 444.81, all for arterial embolism). The two
          translations into ICD-9 codes without the context of the overarching indications might lead
          physicians to draw very different conclusions about Medicare coverage. Further examples
          of interpretation problems include the extent of coverage for skin grafts, the use of the term
          Meleney’s ulcer26, and coverage for the Marx protocol27.

          At the time of our survey, HCFA had previously released a memo stating its interpretation
          of the condition “preparation and preservation of a compromised skin graft” meant that a
          graft must have been previously placed in order for the treatments to be reimbursable. This
          clarification was a response to the confusion regarding the intent of the word preparation in
          the term “preparation and preservation of a compromised skin graft.” Our medical review
          demonstrated this problem. Twenty-five percent of beneficiaries treated under the guise of
          this indication had neither a previous compromised graft nor a graft ultimately placed (64
          percent never had a previous graft failure and 44 percent did not have a graft ultimately
          placed). Because of the confusion related to the skin graft indication, some contractors
          ceased coverage of preparation of a skin graft entirely, leaving only the preservation
          segment of this indication. When asked, in general, if the preparation of a skin graft is a




HBO2: Its Use and Appropriateness                  15                                      OEI-06-99-00090
          covered condition, only 38 percent of Medicare medical directors agreed that it is covered
          at all (regardless of a previously compromised graft).

          Another such example is the interpretation of the condition “progressive necrotizing
          infections”. Specifically included with the indication are the terms necrotizing fasciitis and
          Meleney’s ulcer. This creates a problem because there is no ICD-9 code describing
          Meleney’s ulcer, a very specific condition. In the absence of an appropriate code, bills are
          submitted with the diagnosis codes of necrotizing fasciitis, pyoderma, and cellulitis.
          Pyoderma and cellulitis are very broad terms and have created a niche for billing a broad
          variety of ulcers that do not necessarily fit the diagnostic criteria of Meleney’s ulcer.
          Medical director’s interpretations of the over-arching indication (“progressive necrotizing
          infections”) have ranged from a broad interpretation (including any wound with necrotic
          edges) to the specific classification of this indication as only applying to life-threatening
          emergency treatment of fasciitis.

          Coverage of the condition osteoradionecrosis poses a different interpretation problem.
          There is no effective way to diagnose this condition until a breakdown of the bone occurs.
          When symptoms are observed, it is often too late to gain much benefit from HBO2. In this
          case, the primary usage of HBO2 is prophylactic, most frequently utilized in accordance
          with the Marx protocol. Although no specific exception to the Medicare policy allows
          preventative care, this type of procedure is representative of as much as nine percent of
          HBO2 beneficiaries. Moreover, almost 40 percent of medical directors state that this form
          of therapy is reimbursable and an additional 30 percent believe that, although it is not
          covered, it should be. This form of hyperbaric therapy is one of the more well-supported in
          scientific literature28; however, the conflict between these two Medicare policies has never
          been addressed.

Standards of care have not been incorporated into HCFA’s guidance to reduce
over-utilization

          The number of treatments considered appropriate is not the same across indications, nor is
          the testing required to determine diagnoses. In 1995, the ACHM created “Preferred
          Practice Protocols” that, in most cases, describe diagnostic and treatment patterns specific
          to each indication. In addition, the 1999 revision of UHMS’s “Committee Report”
          includes a utilization review for each indication. To date, neither these nor similar
          protocols have been promoted by HCFA as a method of evaluating appropriate treatment.

          Many hyperbaric practices are started with little information on proper utilization or
          reimbursement policies. According to interviews with hyperbaric physicians, many
          hyperbaric units are not started by physicians. They are started by facilities which may
          have little knowledge of proper utilization and standards of care. This lack of knowledge is
          a likely cause for non-compliance with HCFA’s guidelines, excessive treatments and a
          lower quality of care. Solicitations and contractual arrangements with hyperbaric
          entrepreneurs contribute to this problem. Some manufacturers will install chambers in a
          facility at no cost. The incentive for the manufacturer is that they receive a portion of the
          revenue generated by the chamber. This type of arrangement allows hospitals to institute



HBO2: Its Use and Appropriateness                   16                                      OEI-06-99-00090
          such facilities with no capital outlay cost (and possibly no risk). The draw from institutions
          seeking a chamber for profit, combined with low risk acquisition, increases the pool of
          potential facilities thereby increasing the variation in the rigor of practice standards and
          expertise of personnel. Evidence supporting this claim is anecdotal; however, the
          implications in terms of total billing and the degree to which billing might be inappropriate
          may be significant.

          Many billing physicians and facilities have little HBO2 experience. Nearly half of all
          physicians (43 percent) and hospitals (47 percent) billing hyperbarics in 1998 treated no
          more than 5 Medicare beneficiaries. Half of these treated only one beneficiary. This
          finding raises concerns about the experience and expertise of these providers regarding
          current HBO2 practice protocols.

          Many facilities do not independently substantiate the diagnostic basis for treatment.
          Our reviewers found that almost half of beneficiaries whose treatments were considered to
          be appropriate did not receive proper testing to confirm their diagnosis. Because
          hyperbaric units are considered secondary or tertiary treatment centers, documentation of
          diagnosis was sometimes never confirmed or even documented within the hyperbaric
          facility. Those records are expected to be maintained by the patients’ primary physicians.
          In some cases, we found only an order for treatment and treatment logs. This reliance on
          other physicians to determine the necessity of treatment may be a contributing factor to the
          number of patients treated inappropriately.

          An absence of documentation guidance combined with the inadequacy of medical
          records found in this review suggests this area needs attention. Inadequate
          documentation was a complicating factor in our medical review. The extent of
          documentation varied a great deal. In a few cases, facilities provided only a date of service,
          documentation that a “dive” took place and a quick note on how the patient tolerated
          treatment. Such records are grossly inadequate. Oxygen delivered in a pressurized
          environment is analogous to a drug; and considering such a comparison, the dosage should
          be adequately recorded along with other pertinent information. Our expectation of
          documentation was that each record would include:

                               !    a history and physical, 

                               !    an assessment of the patient as a candidate for hyperbarics, 

                               !    an evaluation of medical necessity, 

                               !    a treatment plan, 

                               !    regular documentation of progress and reassessments of the

                                    treatment plan,
                               !    and daily logs of the procedure (including ascent time, descent time,
                                    total bottom time, dose of oxygen, pressurization level (ATA),
                                    documentation of attendance, and a recording of events).

          This full level of documentation was rarely provided. Only 28 percent of records reviewed
          showed both an adequate plan of care and adequate objective treatment measures.29 The
          absence of this information, along with the previously discussed problem



HBO2: Its Use and Appropriateness                     17                                     OEI-06-99-00090
          that many facilities do not independently substantiate diagnoses, suggests the possibility of
          a systemic problem with the determination of medical necessity. In addressing this issue,
          we found no guidance from HCFA on the necessary level of documentation to support
          Medicare billing. The medical directors surveyed had differing opinions on what
          constitutes adequate documentation for billing. Many feel that it is the responsibility of the
          referring physician to maintain records supporting medical necessity (whether or not these
          medical directors intended on using referring the physician’s records in a post-pay review
          varied). Other medical directors argued that it is the responsibility of the hyperbaric facility
          to keep sufficient documentation of the diagnosis and that the treatment is reasonable and
          necessary.

The role of the hyperbaric physician is unclear

          The duties implicit in billing the 99183 hyperbaric code are unclear. The role of the
          physician has been defined by ACHM as an exhaustive list of duties to be performed
          before, during and after treatment. The ACHM stated that this list was produced at the
          express request of HCFA to describe the physician work as a component of the resource-
          based relative value system (RBRVS), on which the physician payment of approximately
          $140 is based. The list of duties described by the ACHM suggests that oversight of the
          wound and some routine wound care are implicit in the duties of the 99183 code for
          hyperbarics.30 However, the AMA’s “Physician’s Current Procedural Terminology” since
          1994 and similarly, the Federal Register in 1993 state that “E/M [Evaluation and
          Managment] services and/or procedures (e.g., wound debridement) provided in a
          hyperbaric oxygen treatment facility in conjunction with a hyperbaric oxygen therapy
          session should be reported separately.” The absence of a document describing the duties
          implicit in billing the 99183 code creates a vulnerability where some physicians bill for
          routine services in addition to the 99183 code while others believe that the same services
          are included in the fee assessed for hyperbarics.

          The definition of “attendance” is unclear. An additional source of confusion relates to
          the previously discussed concept of attendance and supervision. Many hyperbaric doctors
          disagree on whether a doctor can supervise a treatment without being in attendance.
          However, if the ACHM guidelines truly do represent the physician’s responsibilities, his or
          her duties could not be performed without being in physical attendance for each treatment.
          On the other hand, some argue that this procedure is routine; and consequently, a physician
          might merely be available in case of emergencies, and thus, could supervise the treatments
          from afar. In light of these varied opinions, HCFA announced an additional code for
          hyperbaric oxygen treatments not requiring physician attendance (G0167) in the November
          2, 1999 issue of the Federal Register. This code allows for the same payment to the
          physician as the 99183 code, minus the cost associated with physician work. There is some
          concern in the medical community that the existence of two codes will have significant
          implications in terms of documentation requirements. If a determination of medical
          necessity is required for each code, some form of triage will be necessitated. In addition,
          58 percent of medical directors do not personally support the addition of the new code.
          For, if attendance is truly a cornerstone of quality, the additional code undermines the
          rationale originally implied within the 99183 code.



HBO2: Its Use and Appropriateness                   18                                       OEI-06-99-00090
Recent and impending regulatory changes may affect growth
          Several changes (both recently effected and proposed) to the reimbursement structure and
          the CIM 35-10 coverage guidelines may have an impact on the hyperbaric industry.

          Coverage Guidance: On three occasions in 1999, revisions to the current CIM 35-10 have
          been proposed and then delayed. The most recent proposal is delayed until April 1, 2001.
          While HCFA contended that the proposed revisions did not make substantive changes,
          some hyperbaric physicians argued that the modifications would reduce coverage and
          impose additional requirements (such as physician attendance) that could not be met by
          many facilities and would consequently cause many HBO2 providers to go out of business.

          Outpatient Rate: When payment rates were initially calculated by the HCFA,
          reimbursement was proposed at $145. (Strikingly, the beneficiary was responsible for
          nearly all of this amount with a coinsurance of $141.) This reimbursement rate was far
          short of the average costs, which ranged between $273 and $292 as calculated by the
          Hyperbaric Oxygen Therapy Association (HBOTA). The obvious concern within the
          hyperbaric community was that low reimbursement levels might cause HBO2 units to shut
          down or force hospitals to subsidize their costs.

          In response to these concerns, the HCFA reclassified the HBO2 procedure as a “new
          technology” and reset the reimbursement rate at $75 per 30 minute period. The
          reclassification as a new technology also replaces the excessively high beneficiary
          coinsurance payment with the standard 20 percent. Since a typical HBO2 treatment is 90
          minutes long, the new reimbursement rate is approximately $225. While still short of the
          industry’s estimated costs, this rate appears fair, given that our analysis of 1998 payments
          shows half of the facilities have average charges over this amount and half are under this
          amount. The overall average allowed for all facilities was $265 ($605 submitted and $145
          paid).

          Physician Fee: Changes to the Medicare fee schedule payments for physician services are
          gradually decreasing the reimbursement rate from 1998 levels. Between 1998 and 2002,
          the practice expense relative value is expected to decrease by 60 percent (from 1.81 to
          0.73). This reduction will result in a 33% reduction in current payments to approximately
          $100. The reduction is a result of congressionally mandated changes in the fee schedule
          from charge-based RVUs to resource-based RVUs. Our medical reviewers (who are
          currently practicing HBO2 physicians) are concerned that these reductions may discourage
          physicians from specializing in hyperbarics, which could further reduce access to the
          procedure. However, the mechanism utilized to establish fee schedules has several
          protections to ensure that rates are calculated fairly. These mechanisms include an appeal
          process through HCFA and a practice expense advisory panel of AMA representatives to
          advise HCFA when resource inputs are incorrect.




HBO2: Its Use and Appropriateness                  19                                      OEI-06-99-00090
                    R E C O M M E N D A T I O N S

Our results show that a significant percentage of HBO2 is provided inappropriately. Either HBO2
should never have been used (not a covered diagnosis), excessive treatments were provided, or
documentation of services was not available.

To address concerns raised in this report, we recommend that the Health Care Financing
Administration:

          !          Initiate its national coverage decision process for HBO2.

                     This review is requested because (1) questions persist concerning the appropriate
                     usage of HBO2, (2) there are program integrity issues surrounding significant
                     inappropriate payments, and (3) there are conflicting carrier and intermediary
                     policies. Considering the overlap of HBO2 with other wound-care procedures, this
                     review might consider HBO2 within the broad context of wound care and in terms
                     of its relative cost-effectiveness.

          !          Improve policy guidance:

                               1.    Provide clear descriptions of covered conditions;

                               2.	   Propose additional ICD-9 codes as needed to more closely parallel
                                     covered conditions;

                               3.    Establish a clear physician attendance policy;

                               4.    Consider establishing training requirements;

                               5.	   Consider incorporating clinical standards of patient selection and
                                     treatment protocols designed with the aid of hyperbaric physicians;
                                     and,

                               6.    Specify medical record documentation requirements.

          !          Improve oversight:

                               1.	   Require contractors to initiate edits and medical review procedures
                                     which insure that uncovered diagnoses are not paid and high
                                     treatment thresholds are subject to review.

                               2.	   Explore the establishment of a registry of facilities and/or physicians
                                     providing HBO2 to improve communication and facilitate
                                     monitoring.



HBO2: Its Use and Appropriateness                      20                                       OEI-06-99-00090
Agency Comments
          The Health Care Financing Administration (HCFA) generally concurs with our
          recommendations. They expressed that their goal, as ours, is to provide beneficiaries
          access to effective services and to make payments for those services appropriately. We
          recognize HCFA’s on-going efforts to improve and clarify Medicare’s policy on Hyperbaric
          Oxygen Therapy (HBO2) such as responding to national coverage requests and issuing
          guidance memoranda. We also appreciate their plan of alerting carriers to the
          vulnerabilities associated with this procedure and calling for increased carriers’ oversight.
          See appendix H for the full text of HCFA’s comments.




HBO2: Its Use and Appropriateness                  21                                     OEI-06-99-00090
                                      ENDNOTES

1.        At times oxygen dosages may range anywhere between 30 and 100 percent.

2. 	      Camporesi, Enrico, Hyperbaric Oxygen Therapy: A Committee Report; Undersea and
          Hyperbaric Medical Society, Kensington, MD: Revised 1996.

3.	       The length of treatment is measured in total bottom time or TBT which does not include
          the time dedicated during ascent to increased atmospheric pressure or descent to surface
          pressure.

4.	       According to our review, 18 percent of beneficiaries exhibit side effects (significantly
          greater than the literature suggests). The most common side effect is ear-related trauma,
          representing 63 percent of all observed side effects. While side effects are generally not
          severe, two individuals within our sample showed signs of oxygen toxicity. This relates to
          1.3 percent of the population which also is significantly greater than the expected value
          cited in the literature.

5.	       These statistics were based on our analysis of the 1998 National Claims History file
          maintained by HCFA. Estimated reimbursement for facility payments was based on an
          approximation of the proportion of payment attributed to HBO2 according to a cost to
          charge ratio calculated for revenue center 413 (hyperbaric oxygen treatment).

6.	       The Agency for Healthcare Research and Quality (AHRQ) was established in 1989 as the
          Agency for Health Care Policy and Research. “Reauthorizing legislation passed in
          November 1999 establishes AHRQ as the lead Federal agency on quality research.
          AHRQ, part of the U.S. Department of Health and Human Services, is the agency charged
          with supporting research designed to improve the quality of health care, reduce its cost,
          and broaden access to essential services. AHRQ’s broad programs of research bring
          practical, science-based information to medical practitioners and to consumers and other
          health care purchasers.

          In December 1995, the Agency for Health Research and Quality (AHRQ) wrote a memo
          to HCFA regarding the medical conditions covered by the CIM 35-10 finding that
          “patterns of use do not validate the clinical effectiveness of any intervention, and it cannot
          be concluded that its use by proponents has either established its acceptance by the general
          medical community or provided acceptable proof of clinical utility.”

7.	       In evaluation of the costs and benefits of using HBO2 to treat diabetic feet, the American
          Diabetic Association (ADA) recently concluded that, although adequate research
          (randomized controlled trials) was not available, HBO2 use “is reasonable” to treat severe
          and limb- or life-threatening wounds. (Special Report by the ADA, “Consensus
          Development Conference on Diabetic Foot Wound Care, 7-8 April 1999, Boston MA”,
          Advances in Wound Care, Vol. 12: No. 7; September 1999.)



HBO2: Its Use and Appropriateness                   22                                      OEI-06-99-00090
8.	       The Blue Cross and Blue Shield Association, Technical Assessment Center; Assessment
          Program Vol. 14: No. 13: August, 1999.

9.	       For simplicity in this figure, each beneficiary was counted in only one category based on a
          prioritization of conditions. Also note that some indications were combined to create a
          more meaningful breakdown of the indications.

10.	      Conditions not covered by the 35-10 guidelines including conditions not meeting the
          qualifications (e.g., chronic and refractory) were counted in the category ‘non-covered
          indications’. The discrepancy between non-covered conditions as primary indications
          (33.5%) and treatments not compliant with CIM 35-10 (22.4%) describes courses of
          therapy that either (1) were compliant with CIM 35-10 based on a secondary or tertiary
          indication, or (2) were identified as being compliant by the physician reviewers, but a
          covered condition was not indicated as a reason for treatment.

11.	      Schwab, Robert (On Small Business), Denver Post; “Health care tempts firms local
          entrepreneurs market new products in growing field.”; Denver, Colo.; Oct 17, 1998.

12. 	     Commenting on Appendix D of this report, one representative of UHMS stated, “This is
          the crux of this issue as far as HBO2 in the broad picture of wound healing is concerned.
          Both of the US professional organizations responsible for providing clinical guidelines,
          similar international organizations, and now BC/BS with its recent endorsement of HBO2
          for chronic non-healing wounds (Assessment Program vol 14: No 13, Aug, 1999) define
          the clear value of HBO2 in ischemic/hypoxic wounds where such hypoxia cannot be
          adequately corrected by other means (refer also to the ADA statement (Diabetes Care
          22(8): 1354-1360, 1999) but responsive to HBO2 should be treated. Reputable
          hyperbaric physicians around the country have tried to treat these patients on the basis
          of good experimental and clinical evidence justifying their treatment plan in terms of
          arterial insufficiency and acute ischemia as the only available means to describe the
          aforementioned hypoxic wound. HCFA has not kept pace with this long standing
          recommendation by the UHMS Oxygen Therapy Committee (dating back at least to
          1989), the recent ADA recommendation, and now the recommendation by the BC/BS
          technology assessment. We have medically and physiologically defined these wounds
          using the best available descriptions of ischemia, but this is really both inadequate and
          confusing and should be resolved by a clearly defined new indication and terminology.”

13.	      One source of confusion in CIM 35-10 is the potential parallel between covered and
          uncovered conditions. Acute peripheral arterial insufficiency and preparation and
          preservation of a compromised skin graft (covered conditions), may be used to describe or
          treat conditions that are explicitly uncovered such as cutaneous, decubitus, and stasis
          ulcers; or skin burns. There is no terminology as to which standard has precedence.

14. 	      A chi-square test for this relationship was significant at p<.001 using a Sudaan-weighted
          sample.




HBO2: Its Use and Appropriateness                  23                                     OEI-06-99-00090
15.	      A chi-square test of significance found relationships between compliance with the CIM
          35-10 guidelines and several billing diagnosis in the Sudaan-weighted sample. Both
          positive and negative relationships were found to be significant. Those mentioned in the
          text (pyoderma and chronic ulcer) were more likely to be out of compliance.

16.	      The 37 percent represents beneficiaries who did not meet the review expectations in one
          or more of the two quality of care variables. This group may overlap with the group of
          beneficiaries having excessive treatments.

17.	      The variables evaluated for a relationship with physician attendance and their associated p
          values from a Sudaan-weighted chi-square follow:

                                    Variable Quality                 p Value with   p Value with
                                                                      Attendance    Supervision

                      1. Compliance with 35-10                          <.001          <.001

                      2. Sufficient progress noted to justify           <.001          <.001
                      continued treatment

                      3. Appropriate testing prior to treatment          .023           .020

                      4. Either quality of care variables               <.001          <.001
                      (appropriate testing or sufficient progress
                      to justify continuation)


18. 	     As one of our reviewers explained, it is difficult to determine if a physician is truly in
          attendance. There may be documentation of attendance; combined with other evidence
          suggesting that they were not there. Some examples of this include (1) notes are written
          by the nurse but signed by the doctor, (2) doctors have written notes but they do not
          follow the chronological sequence of the nurse’s notes, (3) documentation that the doctor
          was paged or faxed. Despite these difficulties, we asked our panel of experts to make a
          judgement regarding the level of attendance present.

19. 	     There is some debate as to whether the requirement of 60 hours of hyperbaric education
          was intended to be a single course or should be divided between multiple courses.

20.       The chi-square relationship is significant at p=.001

21. 	     The CIM 35-10 designates that a medical review should be performed in instances that the
          course of therapy exceeds two months.

22.	      A relationship between appropriateness of the billed diagnosis and compliance with the
          CIM 35-10 guidelines was found to be a significant chi=square relationship at p=.001 in
          the Sudaan weighted sample.

23. 	     Medical directors self-reported whether the following conditions would elicit a medical
          review:



HBO2: Its Use and Appropriateness                               24                                 OEI-06-99-00090
                        1. Bills for indications not covered under 35-10            81%

                        2. Treatments courses extending beyond two months           31%

                        3. Any measure of length of treatment                       43%

                        4. Conditions 1 and 2 (as listed above)                     25%

                        5. Conditions 1 and 3 (as listed above)                     41%


24.       Medical directors self-reported their medical review process to include:

                         Confirm treatment is not over-utilized                   53%

                         Confirm progress is monitored appropriately              65%

                         Confirm primary therapy for condition is also provided   65%


25. 	     The currently effective version of the CIM 35-10 is separated into four distinct sections:
          A, B, C, and D. Part A identifies the conditions that are covered. Part B identifies explicit
          conditions that should not be covered. Part C states that reasonable utilization parameters
          should be used; and, Part D states that topical oxygen does not qualify for reimbursement.
          One source of confusion is the potential parallel between covered and uncovered
          conditions. Acute peripheral arterial insufficiency and preparation and preservation of a
          compromised skin graft, covered conditions, may be used to describe or treat conditions
          that are explicitly uncovered such as cutaneous, decubitus, and stasis ulcers; or skin burns.
          There is no terminology as to which standard has precedence. There is currently some
          discussion that any new policy will remove the Part B restrictions; however, this act alone
          will not resolve this problem. Subpart C provides a short description of reasonable
          utilization parameters only specifically referencing length of therapy course. However,
          legal advice sought by Dr. Kelly Hill of the ACHM in 1995 found that “the section [Part C
          of the CIM 35-10] must be interpreted to expand rather than limit covered services.” The
          attorney explained that “clearly if a provision contains lists which are both inclusive and
          exclusive, the proper reading of it would be that those items excluded are explicit. Since
          the provision cannot itemize all possible items inclusive, that part of the provision is
          expandable. Such is the case with Section 35-10 because Subpart C provides a
          mechanism where additional items may be considered as included. Such an interpretation
          is proper since it gives meaning to all subparts of Section 35-10, not just one subpart.”
          (Letter dated 3/8/95 from Attorney Kent Masterson Brown to Kelly Hill, M.D.)

26.	      Meleney’s Ulcer was originally defined in 1926 as “a progressively expanding infection
          created by the synergism between aerophilic and anaerobic/microaerophilic bacteria”, the
          ACHM Preferred Practice Protocols now equate the terms Meleney Ulcer and progressive
          necrotizing infection. This reference now states that the diagnostic criteria includes “a
          slowly (1 to 2 cm per day) progressive, superficial necrotizing environment, and
          microvascular thrombosis in a full thickness ulcer.”




HBO2: Its Use and Appropriateness                           25                             OEI-06-99-00090
27. 	     R. Marx created a specific hyperbaric oxygen therapy protocol for the prophylactic
          treatment of osteoradionecrosis of the jaw prior to dental procedures. The use of this
          therapy is considered to be a standard of care by many dentists and hyperbaric physicians.

28.	      Marx, R., Johnson, R., Kline, S. “Prevention of Osteoradionecrosis: A Randomized
          Prospective Clinical Trial of Hyperbaric Oxygen Versus Penicillin,” JADA, Vol. 111, July
          1985.

          Marx, R. “A New Concept in the Treatment of Osteoradionecrosis,” J Oral Maxillofacial
          Surgery 1983; 41: 283-288.

          Marx,R., and Myers, R. “Use of Hyperbaric Oxygen in Postradiation Head and Neck
          Surgery,” NCI Monographs, Number 9, 1990.

          Epstein, J., Lepawsky, M., McKenzie, M., et al. “Hyperbaric Oxygen and Postradiation
          Osteonecrosis of the Mandible,” Oral Oncol, Eur J Cancer, Vol 29B, No. 3, 201-207,
          1993.

          Consensus Statement: Oral Complications of Cancer Therapies. National Institutes of
          Health Consensus Development Panel. NCI Monographs, Number 9, 1990.

          Bergstrom, K., Branemark, P., Granstrom, G., et al. “A Detailed Analysis of Titanium
          Implants Lost in Irradiated Tissue,” The International Journal of Oral & Maxillofacial
          Implants, Vol 9, No 6, 1994.

          Dempsey, J., Hynes, N., Smith, T., et al. “Cost Effectiveness Analysis of Hyperbaric
          Therapy is Osteoradionecrosis,” Can J Plast Surg., Vol 5, No 4, Winter 1997.

29.       Less than 40 percent had both progress measures and a plan of care in any form.

30.	      ACHM “Physician Duties in Hyperbaric Medicine”, 1993. Wound care is referenced
          under Physician Work Performed Before or After Hyperbaric Treatment, with the Patient
          numbers 3-5.




HBO2: Its Use and Appropriateness                  26                                     OEI-06-99-00090
                                                                                    APPENDIX A


      Cellular and Biochemical Benefits of Hyperbaric Oxygen
Although the number of indications for hyperbarics may be quite large, the mechanisms of therapy
are few. HBO2 is believed to (1) enhance perfusion, (2) stimulate angiogenesis, (3) supersaturate
the bloodstream with oxygen, (4) act as a bactericide, and (5) prevent the production of alpha
toxin. The theories supporting these mechanisms are based on fundamental principles of medicine
and physics.

Perfusion

          Hyperbaric oxygen therapy increases the concentration of dissolved oxygen in the blood,
          which enhances perfusion. “At sea level the blood (plasma) oxygen concentration is .3 ml
          per deciliter of blood, assuming normal perfusion. 100% oxygen at ambient (normobaric
          pressure increases the amount of oxygen dissolved in the blood fivefold to 1.5 ml per
          deciliter, and at 3 atmospheres, the dissolved oxygen content is approximately 6 ml per
          deciliter, more than enough to meet resting cellular requirements without any contribution
          from oxygen bound to hemoglobin.”2

Angiogenesis

          Hyperbaric oxygen therapy stimulates the formation of a collagen matrix so that
          angiogenesis, a necessary component of wound healing, may take place.

Supersaturation of Blood with Oxygen

          Hyperbaric oxygen therapy replaces inert gas in the bloodstream with oxygen, which is then
          metabolized by the body. “Boyle’s law, which states that the volume of gas in an enclosed
          space is inversely proportional to the pressure exerted on it, governs this process and
          explains some of the beneficial effects of hyperbaric oxygen in conditions caused by the
          formation of gas bubbles.”2

Bactericide

     ! Kills certain anaerobes

     ! Prevents growth of species such as Pseudomonas

     ! Restores neutrophil-mediated bacterial killing in previously hypoxic tissues


     Hyperbaric oxygen therapy reduces leucocyte adhesion in reperfusion injury, preventing the

     release of protease and free radicals which cause vasoconstriction and cellular damage. “Local

     hypoxia predisposes wounds to infection, because the neutrophil-mediated killing of bacteria by

     free radicals is decreased. HBO restores this defense against infection and increases the rate of

     killing of some common bacteria by phagocytes. In addition, HBO alone is bactericidal for

     certain anaerobes.”2




HBO2: Its Use and Appropriateness                 A-1                                    OEI-06-99-00090
Prevention of the Production of Alpha Toxin

     Hyperbaric oxygen therapy inhibits the production of alpha toxin, a by-product of gas
     gangrene.


Sources:

     1.	       Leach, et al. , “ABC of oxygen: Hyperbaric oxygen therapy”; British Medical Journal;
                      London: 1998.

     2.	       Tibbles and Edelsberg, “Hyperbaric Oxygen Therapy”; The New England Journal of
                      Medicine; Massachusetts Medical Society: 1996.




HBO2: Its Use and Appropriateness                 A-2                                   OEI-06-99-00090
                                                                                               APPENDIX B


                   Section 35-10 of the Coverage Instruction Manual

[ 35-10 HYPERBARIC OXYGEN THERAPY

     For purposes of coverage under Medicare, hyperbaric oxygen (HBO) therapy is a modality in which the entire body is
     exposed to oxygen under increased atmospheric pressure.

     A. Covered Conditions.
     Program reimbursement for HBO therapy will be limited to that which is administered in a chamber (including the one
     man unit) and is limited to the following conditions:
               1. Acute carbon monoxide intoxication.

               2. Decompression illness.

               3. Gas embolism.

               4. Gas gangrene.
               5. Acute traumatic peripheral ischernia. HBO therapy is a valuable adjunctive treatment to be used in
               combination with accepted standard therapeutic measures when loss of function, limb, or life is threatened.

               6. Crush injuries and suturing of severed limbs. As in the previous conditions, HBO therapy would be an
               adjunctive treatment when loss of function, limb, or life is threatened.

               7. Progressive necrotizing infections (necrotizing fasciitis, meleney ulcer).
               8. Acute peripheral arterial insufficiency.

               9. Preparation and preservation of compromised skin grafts.

               10. Chronic refractory osteomyelitis, unresponsive to conventional medical and surgical management.

               11. Osteoradionecrosis as an adjunct to conventional treatment.

     The following uses of HBO are covered for services rendered on and after 10/1/82.

               12. Soft tissue radionecrosis as an adjunct to conventional treatment.

               13. Cyanide poisoning.

     The following use of HBO is covered for services rendered on or after 2/22/84

               14. Actinomycosis, only as an adjunct to conventional therapy when the disease process is refractory to
               antibiotics and surgical treatment.




     HBO2: Its Use and Appropriateness                       B-1                                   OEI-06-99-00090
B. Noncovered Conditions 


No program payment may be made for HBO in the treatment of the following conditions: 


          1. Cutaneous, decubitus, and stasis ulcers. 


          2. Chronic peripheral vascular insufficiency. 


          3. Anaerobic septicemia and infection other than clostridial. 


          4. Skin burns (thermal). 


          5. Senility. 


          6. Myocardial infarction. 


          7. Cardiogenic shock. 


          8. Sickle cell crisis. 


          9. Acute thermal and chemical pulmonary damage, i.e., smoke inhalation with pulmonary insufficiency. 


          10. Acute or chronic cerebral vascular insufficiency. 


          11. Hepatic necrosis. 


          12. Aerobic septicemia. 


          13. Nonvascular causes of chronic brain syndrome (Pick's disease, Alzheimer's disease, Korsakoffs disease). 


          14. Tetanus. 


          15. Systemic aerobic infection 


          16. Organ transplantation, 


          17. Organ storage. 


          18. Pulmonary emphysema, 


          19. Exceptional blood loss anemia 


          20. Multiple Sclerosis, 


          21. Arthritic Diseases. 


Effective for services rendered on or after September 6, 1984: 


          22. Acute cerebral edema. 





HBO2: Its Use and Appropriateness                         B-2                                OEI-06-99-00090
C. Reasonable Utilization Parameters

Make payment where HBO therapy is clinically practical. HBO therapy should not be a replacement for other
standard successful therapeutic measures. Depending on the response of the individual patient and the severity of
the original problem, treatment may range from less than 1 week to several months duration, the average being 2 to
4 weeks. Review and document the medical necessity for use of hyperbaric oxygen for more than 2 months,
regardless of the condition of the patient, before further reimbursement is made.


D. Topical Application of Oxygen

This method of administering oxygen does not meet the definition of HBO therapy as stated above. Also, its clinical
efficacy has not been established. Therefore, no Medicare reimbursement may be made for the topical application
of oxygen. (Cross refer: §35-31.)




HBO2: Its Use and Appropriateness                   B-3                                    OEI-06-99-00090
                                                                                      APPENDIX C


          Discussion of covered indications by Florida BC/BS

1. 	      Acute carbon monoxide intoxication induces hypoxic stress. The cardiac and central
          nervous systems are the most susceptible to injury from carbon monoxide. The
          administration of supplemental oxygen is essential treatment. Hyperbaric oxygen causes a
          higher rate of dissociation of carbon monoxide from hemoglobin than can occur breathing
          pure air at sea level pressure. The chamber compressions should be between 2.5 and 3.0
          atm abs. It is not uncommon in patients with persistent neurological dysfunction to
          require subsequent treatments within six to eight hours, continuing once or twice daily
          until there is no further improvement in cognitive functioning.

2.	       Decompression illness arises from the formation of gas bubbles in tissue or blood in
          volumes sufficient enough to interfere with the function of an organ or to cause alteration
          in sensation. The cause of this enucleated gas is rapid decompression during ascent. The
          clinical manifestations range from skin eruptions to shock and death. The circulating gas
          emboli may be heard with a doppler device. Treatment of choice for decompression
          illness is HBO2 with mixed gases. The result is immediate reduction in the volume of
          bubbles. The treatment prescription is highly variable and case specific. The depths could
          range between 60 to 165 feet of sea water for durations of 1.5 to over 14 hours. The
          patient may or may not require repeat dives.

3.	       Gas embolism occurs when gases enter the venous or arterial vasculature embolizing in a
          large enough volume to compromise the function of an organ or body part. This occlusive
          process results in ischemia to the affected areas. Air embolism may occur as a result of
          surgical procedures (e.g., cardiovascular surgery, infra-aortic balloons, arthroplasties, or
          endoscopies), use of monitoring devices (e.g., Swan-Ganz introducer, infusion pumps), in
          nonsurgical patients (e.g., diving ruptured lung in respirator-dependent patient, infection
          of fluids into tissue space), or traumatic injuries (e.g., gunshot wound, penetrating chest
          injuries). Hyperbaric oxygen therapy is the treatment of choice. It is most effective when
          initiated early. Therapy is directed toward reducing the volume of gas bubbles and
          increasing the diffusion gradient of the embolized gas. Treatment modalities range from
          high pressure to low pressure mixed gas dives.

4.	       Gas gangrene is an infection caused by the clostridium bacillus, the most common being
          clostridium perfringens. Clostridial myositis and myonecrosis (gas gangrene) is an acute,
          rapidly growing invasive infection of the muscle. It is characterized by profound toxemia,
          extensive edema, massive death of tissue and variable degree of gas production. The most
          prevalent toxin is the alpha-toxin which in itself is hemolytic, tissue-necrotizing and lethal.
          The diagnosis of gas gangrene is based on clinical data supported by a positive [gram-
          stained] smear obtained from tissue fluids, X-ray radiographs, if obtained, can visualize
          tissue gas.

          The onset of gangrene can occur one to six hours after injury and presents with severe and
          sudden pain at the infected area. The skin overlying the wound progresses from shiny and
          tense, to dusky, then bronze in color. The infection can progress as rapidly as six inches
          per hour. Hemorrhagic vesicles may be noted. A thin, sweet-odored exudate



HBO2: Its Use and Appropriateness                  C-1                                      OEI-06-99-00090
          is present. Swelling and edema occur. The noncontractile muscles progress to dark red to
          black in color.

          The acute problem in gas gangrene is to stop the rapidly advancing infection caused by
          alpha-toxin and to continue treatment until the advancement of the disease process has
          been arrested. The goal of HBO2 therapy is to stop alpha-toxin production thereby
          inhibiting further bacterial growth at which point the body can use its own host defense
          mechanisms. HBO2 treatment starts as soon as the clinical picture presents and is
          supported by a positive gram-stained smear. A treatment approach utilizing HBO2, is
          adjunct to antibiotic therapy and surgery. Initial surgery may be limited to opening the
          wound. Debridement of necrotic tissue can be performed between HBO2 treatments
          when clear demarcation between dead and viable tissue is evident. The usual treatment
          consists of oxygen administered at 3.0 atm abs pressure for 90 minutes three times in the
          first 24 hours. Over the next four to five days, treatment sessions twice a day are usual.
          The sooner HBO2 treatment is initiated, the better the outcome in terms of life, limb and
          tissue saving.

5.	       Crush injuries and suturing of severed limbs, acute traumatic peripheral ischemia
          (ATPI), and acute peripheral arterial insufficiency: Acute traumatic ischemia is the
          result of injury by external force or violence compromising circulation to an extremity.
          The extremity is then at risk for necrosis or amputation. Secondary complications are
          frequently seen: infection, non-healing wounds, and non-united fractures.

          The goal of HBO2 therapy is to enhance oxygen at the tissue level to support viability.
          When tissue oxygen tensions fall below 30 mmHg., the body’s ability to respond to
          infection and wound repair is compromised. Using HBO2 at 2-2.4 atm, the tissue oxygen
          tension is raised to a level such that the body’s responses can become functional again.
          The benefits of HBO2 for this indication are enhanced tissue oxygenation, edema
          reduction and increased oxygen delivery per unit of blood flow thereby reducing the
          complication rates for infection, nonunion and amputation.

          The usual treatment schedule is three 1.5 hour treatment periods daily for the first 48
          hours. Additionally, two 1.5 hour treatment session daily for the next 48 hours may be
          required. On the fifth and sixth days of treatment, one 1.5 hour session would typically be
          utilized. At this point in treatment, outcomes of restored perfusion, edema reduction and
          either demarcation or recovery would be sufficient to guide discontinuing further
          treatments.

          For acute traumatic peripheral ischemic, crush injuries and suturing of severed limbs,
          Hyperbaric Oxygen Therapy is a valuable adjunctive treatment to be used in combination
          with accepted standard therapeutic measures, when loss of function, limb, or life is
          threatened. Arterial insufficiency ulcers may be treated by HBO2 therapy if they are
          persistent after reconstructive surgery has restored large vessel function.

6.	       The principal treatment for progressive necrotizing infections (nectrotizing fasciitis,
          meleney ulcer) is surgical debridement and systemic antibiotics. HBO2 is recommended
          as an adjunct only in those settings where mortality and morbidity are expected to be high
          despite aggressive standard treatment. One of the necrotizing infections, Meleney’s ulcer,
          is a polymicrobial (mixed aerobic-anaerobic organisms) ulcer which slowly progresses
          affecting the total thickness of the skin. Also called a bacterial synergistic gangrene, the
          Meleney ulcer is associated with the formation of burrowing cutaneous fissures and sinus
          tracts that emerge at distant skin sites. This ulcer presents as a wide


HBO2: Its Use and Appropriateness                 C-2                                     OEI-06-99-00090
          area of pale red cellulitis that typically with a central area of granulation tissue encircled by
          gangrenous or necrotic tissue.

          Another type of progression necrotizing infection is necrotizing fasciitis. This condition is
          a relatively rare infection. It is usually a result of a group A streptococcal infection
          beginning with severe or extensive cellulitis that spreads to involve the superficial and
          deep fascia, producing thrombosis of the subcutaneous vessels and gangrene of the
          underlying tissues. A cutaneous lesion usually serves as a portal of entry for the infection,
          but sometimes no such lesion is found.

7.	       Preparation and preservation of compromised skin grafts utilizes HBO2 for graft or
          flap salvage in cases where hypoxia or decreased perfusion have compromised viability.
          HBO2 enhances flap survival. Treatments are given at a pressure of 2.0 to 2.5 atm abs
          lasting from 90-120 minutes. It is not unusual to receive treatments twice a day. When
          the graft or flap appears stable, treatments are reduced to daily. Should a graft or flap fail,
          HBO2 may be used to prepare the already compromised recipient site for a new graft or
          flap. It does not apply to the initial preparation of the body site for a graft. HBO2
          therapy is not necessary for normal, uncompromised skin grafts or flaps.

8.	       Chronic refractory osteomyelitis persists or recurs following appropriate interventions.
          These interventions include the use of antibiotics, aspiration of the abscess, immobilization
          of the affected extremity, and surgery. The Undersea and Hyperbaric Medical Society
          have defined “chronic” as existing six months or more. HBO2 is an adjunctive therapy
          used with the appropriate antibiotics. Antibiotics are chosen on the basis of bone culture
          and sensitivity studies. HBO2 can elevate the oxygen tensions found in infected bone to
          normal or above normal levels. This mechanism enhances healing and the body’s
          antimicrobial defenses. It is believed that HBO2 augments the efficacy of certain
          antibiotics (gentamicin, tobramycin, and amikacin). Finally, the body’s osteoclast function
          of removing necrotic bone is dependent on a proper oxygen tension environment. HBO2
          provides this environment. HBO2 treatments are delivered at a pressure of 2.0 to 2.5 atm
          abs for a duration of 90-120 minutes. It is not unusual to receive daily treatments
          following major debridement surgery. The number of treatments required vary on an
          individual basis. Medicare Part B can cover the use of HBO2 for chronic refractory
          osteomyelitis that has been demonstrated to be unresponsive to conventional medical and
          surgical management.

9.	       HBO2’s use in the treatment of osteoradionecrosis and soft tissue radionecrosis is one
          part of an overall plan of care. Also included in this plan of care are debridement or
          resection of non-viable tissues in conjunction with antibiotic therapy. Soft tissue flap
          reconstruction and bone grafting may also be indicated. HBO2 treatment can be indicated
          both preoperatively and postoperatively.

          The patients who suffer from soft tissue damage or bone necrosis present with disabling,
          progressive, painful tissue breakdown. They may present with wound dehiscence,
          infection, tissue loss and graft or flap loss. The goal of HBO2 treatment is to increase the
          oxygen tension in both hypoxic bone and tissue to stimulate growth in functioning
          capillaries, fibroblastic proliferation and collagen synthesis. The recommended daily
          treatments last 90-120 minutes at 2.0 to 2.5 atm abs. The duration of HBO2 therapy is
          highly individualized.

10.	      Cyanide poisoning carries a high risk of mortality. Victims of smoke inhalation
          frequently suffer from both carbon monoxide and cyanide poisoning. The traditional


HBO2: Its Use and Appropriateness                   C-3                                       OEI-06-99-00090
           antidote for cyanide poisoning is the infusion of sodium nitrite. This treatment can
          potentially impair the oxygen carrying capacity of hemoglobin. Using HBO2 as an adjunct
          therapy adds the benefit of increased plasma dissolved oxygen. HBO2’s benefit for the
          pulmonary injury related to smoke inhalation remains experimental. The HBO2 treatment
          protocol is to administer oxygen at 2.5 to 3.0 atm abs for up to 120 minutes during the
          initial treatment.

          Most patients with combination cyanide and carbon monoxide poisoning will receive only
          one treatment.

11.	      Actinomycosis is a bacterial infection caused by Actinomyces israelii. Its symptoms
          include slow growing granulomas that later breakdown, discharging viscid pus containing
          minute yellowish granules. The treatment includes prolonged administration of antibiotics
          (penicillin and tetracycline). Surgical incision and draining of accessible lesions is also
          helpful. Only after the disease process has shown refractory to antibiotics and surgery,
          should HBO2 be covered by Medicare Part B.

**Note that some of the 14 indications covered by CIM 35-10 are grouped into broader
categories.




HBO2: Its Use and Appropriateness                 C-4                                    OEI-06-99-00090
                                                                                                     APPENDIX D


                                    Appropriateness of Treatment
                   Appropriateness of Treatment (in % beneficiaries and total dollars)


                                                                    ESTIMATED
                                                                                      95% CONFIDENCE
                                                                     ALLOWED
                         Class             %         SE (+/-)                            INTERVAL
                                                                     CHARGES
                                                                                          (millions)
                                                                     (millions)

                INAPPROPRIATE             31.6          3.0            $14.2             $12.5 to $16.0

                EXCESSIVE*                 7.3          1.2             $4.9              $3.3 to $6.4

                QUESTIONABLE
                                          20.2         2.55            $11.1             $9.7 to $12.6
                QUALITY

                APPROPRIATE               40.9          3.1            $19.7             $17.9 to $21.5

              TOTAL                     100          N/A          $49.9                  N/A
*Dollars associated with excessive treatments include only the amount that was considered excessive, the
remainder of the associated monies are included under the categories ‘questionable quality’ or ‘appropriate’.



                            Variables determining Appropriateness of Treatment
                                       (in % beneficiaries and total dollars)

                                                                      N=378*


                                                                   ESTIMATED
                        Class                                                        95% CONFIDENCE
                                                                    ALLOWED
                                           %        SE (+/-)                            INTERVAL
                                                                    CHARGES
                                                                                         (millions)
                                                                    ( millions)

               NO PROBLEM*                40.9         3.1            $18.8             $17.2 to $20.5

               NO HBO2*                   9.2          2.0            $3.7               $2.6 to $4.8

               NOT CONSISTENT
                                          22.4         2.6            $10.5             $9.1 to $11.9
               WITH 35-10*

               EXCESSIVE
                                          12.9         1.7            $3.3               $2.2 to $4.3
               TREATMENT*

               TREATMENT
                                          10.9         1.6            $2.7               $1.8 to $3.7
               BEYOND PLATEAU*

               INADEQUATE
                                          20.0         2.5            $10.5             $9.3 to $11.8
               TESTING*

               INSUFFICIENT
               JUSTIFICATION OF           38.0         3.0            $19.6             $17.9 to $21.3
               CONTINUATION*
*Categories are not necessarily mutually exclusive. The proportion and dollars represent all beneficiaries whereas
the first table above is prioritized (mutually exclusive) such that if a beneficiary’s treatment was inappropriate, it was
not included when considering excessive treatments or excessive quality care.




HBO2: Its Use and Appropriateness                            D-1                                            OEI-06-99-00090
                                                                          APPENDIX E


       Accepted Usage of HBO2 by HCFA and Interest Groups



 Condition                                         HCFA     UHMS   ACHM     International

                                              Bubbles

 Decompression Illness                              Yes     Yes    Yes          Yes

 Gas Embolism                                       Yes     Yes    Yes          Yes

                                              Poisoning

 Acute Carbon Monoxide Intoxication                 Yes     Yes    Yes          Yes

 Cyanide Poisoning                                  Yes     Yes    Yes          Yes

 Hydrogen Sulfide Poisoning                            No    No     No          Yes

 Carbon Tetrachloride Poisoning                        No    No     No          Yes

                                              Infections

 Clostridial Myonecrosis (Gas Gangrene)             Yes     Yes    Yes          Yes

 Progressive Necrotizing Infection                  Yes     Yes    Yes          Yes

 Chronic Refractory Osteomyelitis                   Yes     Yes    Yes          Yes

 Meleney’s Ulcer                                    Yes     Yes    Yes          Yes

 Actinomycosis                                      Yes      No    Yes          Yes

 Refractory Mycoses                                    No    No     No          Yes

 Leprosy                                               No    No     No          Yes

                                               Plastics

 Problem Wounds                                     No      Yes    Yes          Yes

 Acute Peripheral Arterial Insufficiency            Yes      No    Yes          Yes

 Compromised Skin Grafts                            Yes     Yes    Yes          Yes

 Thermal Burns                                      No      Yes    Yes          Yes

 Aid to Re-Implantation Surgery                        No   Yes     No          Yes

                                           Traumatology

 Acute Traumatic Peripheral Ischemia                Yes     Yes    Yes          Yes

 Crush Injury and Suturing of Severed Limbs         Yes     Yes    Yes          Yes

 Compartment Syndrome                               Yes     Yes    Yes          Yes

 Soft tissue Sports Injuries                           No    No     No          Yes


HBO2: Its Use and Appropriateness                E-1                          OEI-06-99-00090
 Condition                                    HCFA     UHMS   ACHM   International

                                        Orthopedics

 Osteoradionecrosis                            Yes     Yes    Yes        Yes

 Soft-tissue Radionecrosis                     Yes     Yes    Yes        Yes

 Nonunion of Fractures                            No    No     No        Yes

 Bone Grafts                                      No    No     No        Yes

                                           PVD-1

 Diabetic Wounds                               No      Yes    Yes        Yes

 Ischemic Gangrene (Related)                   No      Yes    Yes        Yes

 Leg Pain                                         No    No     No        Yes

                                          PVD - 2

 Shock                                            No    No     No        Yes

 Myocardial Ischemia                              No    No     No        Yes

 Aid to Cardiac Surgery                           No    No     No        Yes

                                        Neurological

 Stroke                                           No    No     No        Yes

 Multiple Sclerosis                               No    No     No        Yes

 Migraine                                         No    No     No        Yes

 Cerebral Edema                                   No    No     No        Yes

 Multi-infract Dementia                           No    No     No        Yes

 Spinal Cord Injury                               No    No     No        Yes

 Vascular Diseases of the Spinal Cord             No    No     No        Yes

 Intra cranial Abscess                            No   Yes     No        Yes

 Peripheral Neuropathy                            No    No     No        Yes

 Radiation Myelitis                               No    No     No        Yes

 Vegetative Coma                                  No    No     No        Yes

                                        Hematology

 Sickle Cell Crises                               No    No     No        Yes

 Severe Blood Loss Anemia                      No      Yes     No        Yes




HBO2: Its Use and Appropriateness           E-2                        OEI-06-99-00090
 Condition                                              HCFA         UHMS       ACHM   International

                                                 Opthamology

 Occlusion of Central Artery of Retina                      No        No         No        Yes

                                                Gastro-intestinal

 Gastric Ulcer                                              No        No         No        Yes

 Necrotizing Enterocolitis                                  No        No         No        Yes

 Paralytic Ileus                                            No        No         No        Yes

 Pneumotiodes Cystoides Intestinalis                        No        No         No        Yes

 Hepatitis                                                No          No         No        Yes

                               Enhancement of Radiosensitivity of Malignant Ulcers

 Enhancement of Radiosensitivity                            No        No         No        Yes

                                              Otorhinolaryngology

 Sudden Deafness                                            No        No         No        Yes

 Acute Acoustic Trauma                                      No        No         No        Yes

 Labyrithitis                                               No        No         No        Yes

 Meniere’s Disease                                          No        No         No        Yes

 Malignant Otitis Externa                                   No        No         No        Yes

                                                 Lung Disease

 Lung Abscess                                               No        No         No        Yes

 Pulmonary Embolism                                         No        No         No        Yes

                                                  Endocrines

 Diabetes                                                   No        No         No        Yes

                                                   Obstetrics

 Complicated Pregnancy - Diabetes                           No        No         No        Yes

 Congenital Heart Disease of the Neonate                    No        No         No        Yes

 Heart Disease                                              No        No         No        Yes

 Placental Hypoxia                                          No        No         No        Yes

 Fetal Hypoxia                                              No        No         No        Yes

                                                  Asphyxiation

 Drowning                                                   No        No         No        Yes

 Near Hanging                                               No        No         No        Yes

 Smoke Inhalation                                           No        No         No        Yes



HBO2: Its Use and Appropriateness                     E-3                                OEI-06-99-00090
 Condition                                    HCFA          UHMS   ACHM   International

                                    Aid to Rehabilitation

 Spastic Hemiplegia of Stroke                     No         No     No        Yes

 Paraplegia                                       No         No     No        Yes

 Chronic Myocardial Insufficiency                 No         No     No        Yes

 Peripheral Vascular Disease                      No         No     No        Yes




HBO2: Its Use and Appropriateness           E-4                             OEI-06-99-00090
                                                                                APPENDIX F


  Comparison of ICD-9 Interpretations (HCFA vs. several LMRPs)

    Category                    ICD-9     HCFA       TEXAS      FLORIDA   Transamerica    AR (LA)
                                         Proposal    BC/BS*      BC/BS    Southern CA     BC/BS

Date                                       7/97       10/97      4/98         3/97          1/99

Carbon
Monoxide                 986               YES            YES    YES          YES           YES
Poison

Decompression
Sickness                 993.3             YES            YES    YES          YES           YES

Arterial Gas
Embolism                 993.9             NO             NO     YES          NO            YES
                         958.0             YES            YES    YES          YES           YES
                         999.1             NO             NO     NO           NO            YES
                         996.7-996.79      NO             NO     NO           NO            YES

Gas Gangrene
                         040.0             YES            YES    YES          YES           YES

Crush Injuries
and Severed              906.4             NO             NO     NO           YES           NO
Limbs                    925.0             NO             NO     NO           NO            YES
                         925.1-925.9       YES            NO     NO           NO            YES
                         926               NO             NO     NO           NO            YES
                         927.00-927.03     NO             YES    YES          YES           YES
                         927.04-927.08     NO             NO     YES          YES           YES
                         927.09-927.11     YES            YES    YES          YES           YES
                         927.12-927.19     NO             NO     NO           YES           YES
                         927.20-927.21     YES            YES    YES          YES           YES
                         927.22-927.79     NO             NO     NO           YES           YES
                         927.8-927.9       YES            YES    YES          YES           YES
                                           YES            YES    YES          YES           YES
                         928.00-928.01
                                           NO             NO     NO           YES           YES
                         928.02-928.09     YES            YES    YES          YES           YES
                         928.10-928.11     NO             NO     NO           YES           YES
                         928.12-928.19     YES            YES    YES          YES           YES
                         928.2-928.21      NO             NO     NO           YES           YES
                         928.22-928.29     YES            YES    NO           YES           YES
                         928.3             NO             NO     NO           YES           YES
                         928.4-928.7       YES            YES    YES          YES           YES
                         928.8-928.9       YES            YES    NO           NO            YES
                         929.0             NO             NO     NO           NO            YES
                         929.1-929.8       YES            YES    NO           NO            YES
                         929.9             NO             NO     YES          NO            YES
                         996.90-996.99

Progressive
Necrotizing              686.0             NO             YES    NO           YES           NO
Infections               686.01            YES            NO     YES          NO            NO
                         686.09            YES            NO     YES          NO            YES
                         728.86            YES            YES    YES          NO            YES
                         785.4             YES            YES    NO           NO            NO



HBO2: Its Use and Appropriateness                   F-1                              OEI-06-99-00090
    Category                    ICD-9     HCFA        TEXAS     FLORIDA   Transamerica     AR (LA)
                                         Proposal     BC/BS*     BC/BS    Southern CA      BC/BS

Acute
Traumatic                900-902.52        NO           NO        NO          NO             YES
Peripheral               902.53            YES          NO        NO          NO             YES
Ischemia                 903.01            YES          NO        YES         NO             YES
                         903.2             YES          NO        NO          NO             YES
                         904.0             YES          NO        YES         NO             YES
                         904.01-904.4      NO           NO        NO          NO             YES
                         904.41            YES          NO        YES         NO             YES
                         904.42-904.9      NO           NO        NO          NO             YES
                         443.9             YES          YES       NO          YES            NO
                         925-929         PARTIAL      PARTIAL   PARTIAL     PARTIAL          YES
                         991.1             NO           NO        NO          YES            NO
                         991.2             NO           NO        NO          YES            NO

Arterial
Insufficiency            250.7             NO             NO     NO           NO             YES
                         362.30-362.31     NO             NO     NO           NO             YES
                         443.81            NO             NO     NO           NO             YES
                         443.9             NO             NO     NO           YES            YES
                         444.0-444.20      NO             NO     NO           NO             YES
                         444.21            YES            YES    YES          NO             YES
                         444.22            YES            YES    YES          NO             YES
                         444.23-444.80     NO             NO     NO           NO             YES
                         444.81            YES            YES    NO           NO             YES
                         444.82-444.99     NO             NO     NO           NO             YES
                         733.41-733.49     NO             NO     YES          NO             NO

Compromised
Skin Grafts              996.52            YES            YES    YES          YES            YES
                         996.90-996.96     YES            NO     NO           NO             NO

Osteomyelitis
                         730.10-730.19     YES            YES    YES          YES            YES

ORN
                         526.89            YES            YES    YES          YES            YES
                         909.2             NO             YES    YES          YES            NO
                         990               YES            YES    YES          YES            YES

STRN
                         990               YES            YES    YES          YES            YES
                         909.2             NO             YES    YES          YES            NO

Cyanide
                         987.7             YES            NO     YES          NO             YES
                         989.0             YES            NO     YES          YES            YES

Actinomycosis
                         039.0-039.4       YES            YES    YES          YES            YES
                         039.5-039.7       NO             NO     YES          YES            YES
                         039.8             YES            YES    YES          YES            YES
                         039.9             YES            YES    YES          YES            YES


* Texas Blue Cross/Blue Shield is now Trailblazers.




HBO2: Its Use and Appropriateness                   F-2                               OEI-06-99-00090
                                                                              APPENDIX G


             Key Questions From the Medical Review Protocol


                                                                                   95%
                                                          N       %    S.E.     Confidence
                                                                                 Interval

 1. The ICD-9 codes billed to Medicare:

 A. Accurately Describe the Primary Indication            142   42.9   3.3      36.4 to 49.3
 B. Approximate the Primary Indication                    80    21.7   2.6      16.6 to 26.8
 C. Describe a Secondary or Tertiary Indication           51    18.2   2.7      13.0 to 23.4
 D. Seem Erroneous                                        47    13.1   2.2       8.8 to 17.5
 E. Other                                                 13    4.1    1.3       1.6 to 6.7
                                             Total        333

 2. Did the physician establish a plan of care?

 A. Yes                                                   154   45.6   3.2      39.2 to 52.0
 B. Yes, but inadequate                                   65    17.7   2.4      12.9 to 22.4
 C. Not documented                                        121   36.7   3.2.     30.5 to 43.0
                                            Total         340

 3. Did the physician establish objective
 progress measures?
                                                                32.0   3.0      26.1 to 37.9
 A. Yes                                                   109   12.9   2.1       8.7 to 17.1
 B. Yes, but inadequate                                   49    55.1   3.2      48.8 to 61.5
 C. Not documented                                        181
                                            Total         339

 4. Was sufficient progress to justify
 continuation noted in the medical record?

 A. Yes                                                   177   55.2   3.3      48.6 to 61.7
 B. No                                                    146   44.8   3.3      38.3 to 51.4
                                            Total         323

 5. In your opinion, did treatments continue after
 benefits plateaued?

 A. Yes                                                   73    13.2   1.8       9.6 to 16.8
 B. No                                                    191   63.2   3.1      57.2 to 69.2
 C. Unable to determine                                   75    23.6   2.8      18.1 to 29.1
                                            Total         339

 6. Was physician attendance specifically
 documented in the chart?

 A. Always                                                101   27.5   2.9      21.9 to 33.1
 B. Sometimes                                             66    20.6   2.7      15.3 to 25.9
 C. Never                                                 171   51.7   3.3      45.3 to 58.1
                                            Total         338




HBO2: Its Use and Appropriateness                   G-1                           OEI-06-99-00090
 7. Does it appear that a physician was
 present?

 A. Yes                                                  145   39.0   3.1   32.8 to 45.1
 B. No                                                   135   44.1   3.3   37.8 to 50.5
 C. Unable to determine                                  55    16.2   2.4   11.4 to 20.9
                                            Total        335

 8. Is there evidence that the physician was
 supervising treatments?

 A. Yes                                                  207   58.8   3.3   52.4 to 65.2
 B. No                                                   75    25.2   2.9   19.4 to 30.9
 C. Unable to determine                                  52    16.1   2.5   11.2 to 20.9
                                           Total         334

 9. Did the patient receive appropriate testing for
 the diagnosis?

 A. Yes                                                  223   67.2   3.1   61.2 to 73.2
 B. No                                                   83    22.0   2.7   16.8 to 27.3
 C. Unable to determine                                  33    10.8   2.1    6.7 to 14.8
                                           Total         339

 10. Was treatment prior to initial HBO2
 appropriate?

 A. Yes                                                  212   63.0   3.2   56.8 to 69.2
 B. No                                                   38    10.7   2.1    6.7 to 14.8
 C. Unable to determine                                  88    26.3   2.9   20.6 to 32.0
                                            Total        338

 11. Was payment and coverage consistent
   with HCFA’s 35-10 guidelines?

 A. Yes                                                  239   72.9   2.9   67.1 to 78.6
 B. No                                                   84    25.6   2.9   19.9 to 31.3
 C. Unable to determine                                   8    1.6    0.6    0.4 to 2.7
                                            Total        331




HBO2: Its Use and Appropriateness                  G-2                        OEI-06-99-00090
                                                                             APPENDIX H



                                    Agency Comments

In this appendix, we present comments from the Health Care Financing Administration.




HBO2: Its Use and Appropriateness            H-1                                   OEI-06-99-00090
HBO2: Its Use and Appropriateness   H-2   OEI-06-99-00090
HBO2: Its Use and Appropriateness   H-3   OEI-06-99-00090
HBO2: Its Use and Appropriateness   H-4   OEI-06-99-00090
